                                                             Issue Date
                                                                  March 14, 2012
                                                              
                                                             Audit Report Number
                                                                  2012-PH-1006




TO:        Annemarie C. Uebbing, Director, Office of Community Planning and
             Development, Newark Field Office, 2FD
           //signed//
FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
             3AGA

SUBJECT:   Gloucester Township, NJ, Did Not Always Administer Its Community
           Development Block Grant Recovery Act Funds According to Applicable
           Requirements


                                 HIGHLIGHTS

 What We Audited and Why

           We audited Gloucester Township, NJ’s administration of its Community
           Development Block Grant funds that it received under the American Recovery
           and Reinvestment Act of 2009. We selected the Township for an audit because
           we received two complaints alleging that it misused stimulus funds and overpaid
           for services and because of our mandate to audit Recovery Act activities. Our
           objective was to determine whether the Township obligated, expended, and
           reported its Block Grant funds provided under the Recovery Act according to the
           Recovery Act and applicable U.S. Department of Housing and Urban
           Development (HUD) requirements.

 What We Found


           The Township did not always administer its Block Grant Recovery Act funds in
           accordance with the Recovery Act and applicable HUD requirements. It did not
           (1) always maintain documentation to demonstrate that it competitively awarded
           contracts, (2) create contracts for sewer reconstruction work, (3) execute a
           subrecipient agreement and monitor the subrecipient, (4) ensure that contractors
           complied with the Davis-Bacon Act, and (5) accurately report information on the
           Federal reporting Web site. We found no evidence to substantiate the alleged
           misuse of Recovery Act funds. The overpayment for services alleged in the
           complaint was related to snow removal costs. The Township did not use
           Recovery Act funds to pay for these costs.

What We Recommend


           We recommend that HUD require the Township to (1) provide documentation to
           demonstrate that $28,850 expended on a sewer reconstruction project was fair and
           reasonable or reimburse its program from non-Federal funds for any amount that
           it cannot support, (2) obtain and review the contractor’s weekly payrolls related to
           its expenditures for the activities identified in the audit to ensure that contractors
           paid employees prevailing wages according to the Davis-Bacon Act, (3) develop
           and implement controls to ensure that it complies with all applicable procurement
           requirements, (4) develop and implement controls to ensure that it creates
           subrecipient agreements when needed and monitors its subrecipients, (5) develop
           and implement controls to ensure that contractors comply with Davis-Bacon Act
           requirements, and (6) report accurate job creation information for the reporting
           period ending March 31, 2012.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided a draft audit report to the Township on February 16, 2012, and
           discussed it with the Township at an exit conference on February 27, 2012. The
           Township provided written comments to the draft report on March 5, 2012. It
           agreed with the conclusions and recommendations in the report. The complete
           text of the Township’s response can be found in appendix B of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
      Finding: The Township Did Not Always Administer Its Block Grant Funds in   5
      Accordance With Applicable Requirements

Scope and Methodology                                                            11

Internal Controls                                                                13

Appendixes
   A. Schedule of Questioned Costs                                               15
   B. Auditee Comments                                                           16




                                           3
                      BACKGROUND AND OBJECTIVE

Gloucester Township, NJ, is a Community Development Block Grant entitlement grantee. The
U.S. Department of Housing and Urban Development (HUD) annually awards grants to
entitlement grantees to carry out a wide range of community development activities directed
toward revitalizing neighborhoods, economic development, and providing improved community
facilities and services. The Township is governed by a mayor, and a seven-member township
council. The Township manages its community development programs through its grants
department located at 1261 Chews Landing Road, Blackwood, NJ. The Township’s grants
coordinator is Ms. Joan Eller-Hinski.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009. The purpose of the Recovery Act was to jumpstart the Nation’s ailing economy, with a
primary focus on creating and saving jobs in the near term and investing in infrastructure that
will provide long-term economic benefits. This legislation included a $1 billion appropriation of
community development funds to carry out Block Grant programs as authorized under Title 1 of
the Housing and Community Development Act of 1974.

On July 31, 2009, the Township received $94,652 in Block Grant funds under the Recovery Act.
The Township planned to use $50,000 in grant funds for the Gloucester Township Housing
Authority’s Senior One Campus and $44,652 for a storm sewer reconstruction project.

The Recovery Act imposed additional reporting requirements and more stringent obligation and
expenditure requirements on the grant recipients beyond those applicable to the ongoing Block
Grant program grants. Transparency and accountability were critical priorities in the funding
and implementation of the Recovery Act.

Our objective was to determine whether the Township obligated, expended, and reported its
Block Grant funds provided under the Recovery Act according to Recovery Act and applicable
HUD requirements.




                                                4
                                    RESULTS OF AUDIT

Finding: The Township Did Not Always Administer Its Block Grant
Funds in Accordance With Applicable Requirements
The Township did not always administer its Block Grant Recovery Act funds in accordance with
Recovery Act and applicable HUD requirements. It did not (1) always maintain documentation
to demonstrate that it competitively awarded contracts, (2) create contracts for sewer
reconstruction work, (3) execute a subrecipient agreement and monitor the subrecipient, (4)
ensure that contractors complied with the Davis-Bacon Act, and (5) accurately report
information on the Federal reporting Web site. These conditions occurred because the Township
did not have controls in place to ensure that it complied with applicable procurement requirements
and contractors complied with Davis-Bacon Act requirements. It did not fully understand the
purpose of a subrecipient agreement and did not fully understand the Recovery Act’s job
reporting requirements and calculation criteria. As a result, HUD had no assurance that (1) the
Township’s expenditure of $28,850 for sewer reconstruction work was fair and reasonable, (2)
contractors were aware of all of the Federal requirements governing their work, (3) the Township
had a basis for effectively monitoring subrecipient performance, and (4) contractors paid
employees prevailing wages according to the Davis-Bacon Act. Also, the Township overstated
job creation information that it reported on the Federal reporting Web site.


    The Township Submitted an
    Amended Action Plan as
    Required


                   In June 2009, the Township submitted a substantial amendment to its fiscal year
                   2008 annual action plan as required. The plan outlined the activities the
                   Township would undertake using the Block Grant funds it received. The
                   substantial amendment to the fiscal year 2008 annual action plan was required to
                   record the activities the Township planned to undertake using its Block Grant
                   Recovery Act funds. The substantial amendment consisted of two activities: the
                   Gloucester Township Housing Authority Senior One Campus1 ($50,000) and a
                   storm sewer reconstruction project on Ridge Avenue ($44,652). Both activities
                   were eligible to be funded with Recovery Act Block Grant funds. The actual cost
                   for the reconstruction project at Ridge Avenue totaled only $28,850 so the
                   Township obligated $14,650 of the remaining funds for a sewer reconstruction
                   project at Breckenridge Drive. The remaining $1,152 was to be used to complete
                   another sewer reconstruction project.

                   The funds provided for the Senior One Campus activity paid for handrails to be
                   installed in the building’s hallways. The sewer reconstruction activities consisted
1
    A senior living complex




                                                    5
           of demolishing and removing the existing sewer pipes and installing new sewer
           pipes. The activities met the Block Grant program’s national objective criteria.
           The following pictures show some of the work completed by the Township with
           its Recovery Act funds.




           These photographs show the installation of handrails throughout the Gloucester Township
           Housing Authority’s Senior One Campus building (completed).




           These photographs show the installation of a yard draining sewer (left) and pipe system (right)
           related to the sewer reconstruction project at Breckenridge Drive (completed).


The Township Essentially
Complied With the Expenditure
Deadline


           The Recovery Act required the Township to expend 100 percent of its grant by
           September 30, 2012. As of June 2010, the Township had expended $93,500 (99
           percent) of its grant. The Township maintained documentation, such as
           contractor invoices, to support its expenditures. The documentation adequately
           supported the payments.




                                                  6
The Township Did Not Always
Maintain Documentation To
Demonstrate That It
Competitively Awarded
Contracts


           The Township did not have documentation to demonstrate that it received an
           adequate number of price or rate quotations from qualified sources for a sewer
           reconstruction project. The Township awarded a sewer reconstruction contract
           for work to be performed at Ridge Avenue totaling $28,850. The small purchase
           requirements at 24 CFR (Code of Federal Regulations) 85.36(d)(1) required the
           Township to obtain price or rate quotations from an adequate number of qualified
           sources. Additionally, New Jersey Statutes Annotated 40A:11, regarding contract
           law, requires that all projects over $25,000 be advertised for bids. Contrary to
           these requirements, the Township had no documentation to demonstrate that it
           obtained any quotes other than the quote from the contractor to whom it awarded
           the contract or that it advertised the work for bids. This condition occurred
           because the Township did not have controls in place to ensure that it complied with
           applicable procurement requirements. Since the Township lacked documentation
           to demonstrate that the price it paid for the work was fair and reasonable, the
           expenditure of $28,850 was unsupported.

The Township Did Not Create
Contracts for Sewer
Reconstruction Work



           The Township did not create contracts for its sewer reconstruction projects, and as
           a result, contractors were not aware of all of the Federal requirements governing
           their work. Although the Township issued purchase orders and used the
           contractors’ proposals to support the purchase orders, none of the documentation
           communicated the clauses required for this work by 24 CFR 85.36(i) to the
           contractors. Among the required clauses that the Township did not disclose were
           clauses pertaining to termination for cause or convenience, equal employment
           opportunity provisions, the Anti-Kickback Act, the Contract Work Hours and
           Safety Standards Act, and reporting requirements. This condition occurred
           because the Township did not have controls in place to ensure that it complied with
           applicable procurement requirements. As a result, it had no assurance that (1) its
           interests were protected; (2) contractors refrained from discrimination; (3) those
           involved in contracting refrained from offering, accepting, or attempting to accept
           inducements for favorable treatment in awarding contracts of any kind; (4)
           contractors and subcontractors paid laborers and mechanics one and one-half
           times their basic rate of pay for all hours worked over 40 hours in a workweek
           and avoided unsanitary, hazardous, or dangerous working conditions on




                                            7
           construction projects; and (5) contractors maintained records pertaining to the
           contract for at least 3 years.

The Township Did Not Execute
a Subrecipient Agreement and
Monitor the Subrecipient


           The Township provided $50,000 in Block Grant Recovery Act funds to the
           Gloucester Township Housing Authority to aid in the completion of its Senior
           One Campus project. However, it did not create a subrecipient agreement to
           memorialize the terms governing the Block Grant funds that it contributed to the
           project (such as a statement of work and a schedule for completing the work) and
           did not monitor the Authority’s performance. Regulations at 24 CFR 570.503(a)
           state that before the grantee disburses any Block Grant funds to a subrecipient, the
           recipient shall sign a written agreement with the subrecipient. The agreement
           shall remain in effect during any period that the subrecipient has control over
           Block Grant funds, including program income. Regulations at 24 CFR 85.40(a)
           state that grantees are responsible for managing the day-to-day operations of
           grant- and subgrant-supported activities. Grantees must monitor grant- and
           subgrant-supported activities to ensure compliance with applicable Federal
           requirements and that performance goals are achieved. The Township did not
           comply with these requirements because it did not fully understand the purpose of
           a subrecipient agreement. It did not believe that a subrecipient agreement was
           needed and assumed that the Authority would comply with all Federal
           regulations. As a result, the Authority was unaware that it was required to
           implement the contract clauses contained in 24 CFR 85.36(i), and the Township
           had no basis for effectively monitoring the Authority’s performance.

The Township Did Not Ensure
Compliance With Davis-Bacon
Act Requirements


           The Recovery Act required that all laborers and mechanics be paid the prevailing
           wage rates in accordance with the Davis-Bacon Act. HUD Handbook 1344.1,
           REV-1, required the Township to perform wage interviews and review the
           contractor’s weekly payrolls. The Township did not comply with these
           requirements. It did not include a Davis-Bacon Act clause in its sewer
           reconstruction contracts, nor did it obtain contractor payroll records to ensure that
           contractors paid employees fairly in accordance with the Davis-Bacon wage rate.
           Additionally, the Township did not monitor the Gloucester Township Housing
           Authority to ensure that its contractors complied with the Davis-Bacon Act. The
           Authority did not include a Davis-Bacon Act clause in its contract. This condition




                                             8
                 occurred because the Township lacked controls to ensure that contractors
                 complied with Davis-Bacon Act requirements and it did not create a subrecipient
                 agreement with the Authority and monitor its performance. As a result, HUD has
                 no assurance that contractors paid employees prevailing wages according to the
                 Davis-Bacon Act.

    The Township Did Not Report
    Accurate Job Creation
    Information


                 The Township did not accurately report the number of jobs created or retained as
                 a result of its Recovery Act activities.2 Guidance issued in Office of Management
                 and Budget (OMB) Memorandum 10-08, dated December 18, 2009, defines jobs
                 created or retained as jobs funded during the quarter by the Recovery Act
                 expressed as full-time equivalents. The memorandum also provides guidance on
                 how to calculate full-time equivalents. Full-time equivalents were to be estimated
                 by dividing the total number of hours worked and funded by the Recovery Act
                 within the reporting period by the quarterly hours in a full-time schedule.
                 Contrary to this guidance, the Township reported nine jobs, although it did not
                 obtain contractor payroll records or time sheets to calculate the number of jobs.
                 The Township was unsure of how to report job creation information. It did not
                 fully understand the Recovery Act’s job reporting requirements and calculation
                 criteria so it estimated the number of jobs without support. It acknowledged that
                 the job creation information it reported was incorrect. In addition, the Township
                 reported job creation information quarterly, although it made no expenditures
                 after the quarter ending March 31, 2010. OMB Memorandum 10-34, dated
                 September 24, 2010, does not allow recipients to make changes to the number of
                 jobs in prior reports. Therefore, the Township needs to begin reporting correct
                 job information starting with its report for the quarter ending March 31, 2012.


    Conclusion


                 The Township did not always administer its Block Grant Recovery Act funds in
                 accordance with Recovery Act and applicable HUD requirements. The conditions
                 identified by the audit occurred because the Township did not have controls in
                 place to ensure that it complied with applicable procurement requirements and
                 contractors complied with Davis-Bacon Act requirements. It did not fully
                 understand the purpose of a subrecipient agreement and did not fully understand
                 the Recovery Act’s job reporting requirements and calculation criteria. As a
                 result, HUD had no assurance that (1) the Township’s expenditure of $28,850 for
                 sewer reconstruction work was fair and reasonable, (2) contractors were aware of

2
 Grant recipients are required to report spending and performance data, including estimates of the number of jobs
created and retained, on the Federal reporting Web site, www.recovery.gov.




                                                         9
          all of the Federal requirements governing their work, (3) the Township had a basis
          for effectively monitoring subrecipient performance, and (4) contractors paid
          employees prevailing wages according to the Davis-Bacon Act. Also, the
          Township overstated job creation information that it reported on the Federal
          reporting Web site. To resolve the issues, the Township needs to (1) demonstrate
          that $28,850 expended on a sewer reconstruction project was fair and reasonable
          and contractors paid employees prevailing wages according to the Davis-Bacon
          Act; (2) develop and implement controls to ensure that it complies with all
          applicable procurement requirements, creates subrecipient agreements, and
          monitors subrecipients and contractors comply with Davis-Bacon Act
          requirements; and (3) report accurate job creation information on the Federal
          reporting Web site.

Recommendations



          We recommend that the Director of HUD’s Newark Office of Community Planning
          and Development require the Township to

          1A.     Provide documentation to demonstrate that $28,850 expended on a sewer
                  reconstruction project was fair and reasonable or reimburse its program
                  from non-Federal funds for any amount that it cannot support.

          1B.     Obtain and review the contractor’s weekly payrolls related to its
                  expenditures for the activities identified in the audit to ensure that
                  contractors paid employees prevailing wages according to the Davis-
                  Bacon Act.

          1C.     Develop and implement controls to ensure that it complies with all
                  applicable procurement requirements.

          1D.     Develop and implement controls to ensure that it creates subrecipient
                  agreements when needed and monitors its subrecipients.

          1E.     Develop and implement controls to ensure that contractors comply with
                  Davis-Bacon Act requirements.

          1F.     Report accurate job creation information for the reporting period ending
                  March 31, 2012.




                                           10
                         SCOPE AND METHODOLOGY

We conducted the audit from October 2011 through February 2012 at the Township’s grants
department located at 1261 Chews Landing Road, Blackwood, NJ, and at our office located in
Philadelphia, PA. The audit covered the period February 2009 through September 2011 but was
expanded when necessary to include other periods. We selected the Township for an audit
because we received two complaints alleging that it misused stimulus funds and overpaid for
services and because of our mandate to audit Recovery Act activities. We found that the
complaints had no merit. We found no misuse of Recovery Act funds. The overpayment for
services alleged in the complaint was related to snow removal costs. The Township did not use
Recovery Act funds to pay for these costs.

To achieve our audit objective, we

      Obtained relevant background information.

      Reviewed the Recovery Act, OMB implementation guidance, and applicable HUD
       regulations and guidance.

      Reviewed minutes from the meetings of the Township’s council.

      Reviewed the Township’s fiscal year 2009 and 2010 audited financial statements.

      Interviewed relevant Township staff and officials from the Gloucester Township Housing
       Authority and HUD’s Newark Office of Community Planning and Development.

      Reviewed relevant Township financial records and reporting records.

      Reviewed $93,500 in expenditures (99 percent of the grant amount) for the Gloucester
       Township Housing Authority’s Senior One Campus ($50,000) and two sewer
       reconstruction activities ($43,500). The payments were supported by invoices and other
       supporting documentation.

      Reviewed contract documentation supporting the Township’s expenditure of $93,500 in
       funds for the Senior One Campus project (one contract) and the two sewer reconstruction
       projects (two contracts).

      Reviewed the Township’s 2010 and 2011 quarterly reports on the Federal reporting Web
       site.

      Physically verified that handrails were installed at the Gloucester Township Housing
       Authority’s Senior One Campus and that two sewer reconstruction projects had been
       completed.




                                              11
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                              12
                                INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                      Policies and procedures that the Township implemented to ensure that
                       activities met established program objectives and requirements.

                      Policies and procedures that the Township implemented to ensure that
                       resource use was consistent with applicable laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

                       The Township did not have controls in place to ensure that (1) it complied
                        with applicable procurement requirements, (2) it created subrecipient



                                                 13
agreements when needed and monitored its subrecipients, (3) contractors
complied with Davis-Bacon Act requirements, and (4) it reported accurate
job creation information on the Federal reporting Web site.




                        14
                                   APPENDIXES


Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                           Recommendation
                                                  Unsupported 1/
                           number
                                  1A                $28,850



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             15
Appendix B

                                AUDITEE COMMENTS


     GLEN V. BIANCHINI                                                               DAVID MAYER
       Council President                                                                Mayor

     ORLANDO MERCADO            TOWNSHIP OF GLOUCESTER                           THOMAS C. CARDIS
     Council Vice President                                                       Business Administrator
                              1261 Chews Landing-Clementon Rd., at Hider Lane
      Council Members             P.O. Box 8, Blackwood, New Jersey 08012
     MICHELLE GENTEK                                                            DAVID F. CARLAMERE, ESQ.
      DAN HUTCHINSON            (856) 228-4000 • FAX: (856) 374-3527 (Clerk)            Solicitor
     FRANKLIN T. SCHMIDT                        FAX: (856) 374-3528 (Finance)
       SAMUEL M. SILER
       TRACEY TROTTO                                                              ROSEMARY DI JOSIE
                                                                                      Township Clerk




                                                                           February 27, 2012

     John P. Buck, Regional Inspector General
     Philadelphia Region 3AGA
     Wanamaker Building
     100 Penn Square East, Suite 10205
     Philadelphia, PA 19107-3380

     Re: Audit Report of FY2009 ARRA expenditures

     Dear Mr. Buck,

     This letter is a response to the Audit Report completed by the Office of Inspector General
     of the U.S. Department of Housing and Urban Development, as it pertains to Gloucester
     Township’s expenditure of FY2009 ARRA Funds in the amount of $94,642. We
     understand and do not dispute the findings of the Audit Report. We hereby commit to
     taking any and all corrective actions required by the U.S. Department of Housing and
     Community Development. If you need any additional information please contact me at
     856-228-4000, x 307 or jae@glotwp.com.


                                                                           Sincerely,



                                                                           Joan Eller-Hinski
                                                                           Grants Coordinator
     Cc: Mayor David Mayer




                                                       16
